41

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing notice of
Petition for a Writ of Certiorari was served via USPS First Class Mail in a postagepaid wrapper in accordance to the Supreme Court of the United States Rule 29,
addressed to the following parties on this 03rd day of November 2020:
Supreme Court Rule 29(4)(a)

Appellee

Solicitor General of the United States
Room 5616, Department of Justice,
950 Pennsylvania Ave.
N. W., Washington, DC 20530-0001

COMMISSIONER OF INTERNAL
REVENUE
(Though signed counsel)

Counsel for Appellee

Counsel for Appellee

Gilbert Steven Rothenberg
U. S. Department of Justice Tax
Division
P.O. Box 502
Washington, DC 20044
Telephone: 202-514-3361

Ivan C. Dale
U. S. Department of Justice Tax
Division
P.O. Box 502
Washington, DC 20044
Telephone: (202)307-6615

(28U.S.C. 1746(1))
I declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct. Executed on this 03— day of November
2020.

AnthonyTJwayne Williams

